20-6906

Supreme Court, U.S.
FILED

DEC 1 5 2020

IN THE

SUPREME COURT OF THE UNITED STATES

OFFICE OF THE CLERK

PETITION FOR WRIT OF CERTIORARI
CASE NO.

CHARLES HAMILTON,
Petitioner,
V.
STATE OF NEW JERSEY, ET. AL.
Respondent,

ON PETITION FOR WRIT OF CERTIORARI TO THE
3rd CIR. COURT OF APPEAL

ORIGINAL
SUBMITTED BY:

CHARLES HAMILTON
East Jersey State Prison
1100 Woodbridge Road
Rahway, N.J. 07065
r

RECEIVED
DEC 2 3 2020

QUESTION*S PRESENTED

1. Whether a State Court's erroneous denial of a
criminal defendant's Sixth Amendment Right to
be represented by counsel of choice, resulted
in a decision that was contrary to, or involved
an unreasonable application of "clearly established"
Federal law as determined by the Supreme Court, of
the United States?
2. Whether a State Court's erroneous denial of a
criminal defendant's Sixth Amendment Right to
be represented by counsel of choice, meet the
restrictive Antiterrorism and Effective Death
Penalty Act(AEDPA), which put restrictions on
Federal courts hearing petitions by State
prisoners?

table of contents

1

OPINIONS BELOW

1

JURISDICTION

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
r

2

3 -r 10

STATEMENT OF THE CASE

11 - 16

reasons for granting the writ

16

CONCLUSION

E©EX TO APPENDICES

APPENDIX/EX A - Order denying certificate of appealability 10/7/2020

APEENDIX/EX B - Opinion/Denying Motion to Reconsider 3/2/2020

APPENDIX/EX C - Memorandum and Order from the 3rd Cir. District Court 9/13/2019

APPENDIX/EX D - Opinion/New Jersey State App. Div. 6/29/2010

APP01DIX/EX E - Retainer Agreement between Maria Noto & Petitioner C. Hamilton

TABLE OF AUTHORITIES CITED

CASES

Glasser v. United States, 315 U.S. 60, 75 (1942) ...

11

United States v. Gonzalez-Lopez, 548 U.S. 140 (2006)

15

united States v. Johnston, 318 F.2d 288 (1963) .......

14

united States v. Seale, 461 F.2d 345, 356-361 (1972)

14

STATUTES AND RU1£S

28 U.S.C. 1254(1)
28 U.S.C. 2254

2
16

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari
issue to review the judgment below.

OPINIONS BELOW
[X] For cases from federal courts:
The opinion of the united States court of appeals appears
at Appendix A to the petition and is:
; or

[] reported at

[] has been designated for publication but is not yet
reported; or
[X] is unpublished.
The opinion of the United States District Court appears
at Appendix B and reconsideration at C to the petition
and is:
; or

[] reported at

[] has been designated for publication but is not yet
reported; or
[X] is unpublished.

JURISDICTION
[X] For cases from federal courts:
The date on which the U.S. Court of Appeals decided my
case was October 7, 2020.
[X] No petition for rehearing was timely filed in my case.
[] A timely petition for rehearing was denied by the U.S.
Court of Appeals on the following date:
r
1

and a copy of the order denying rehearing appears at
Appendix _
(] An extension of time to file the petition for a writ
of certiorari was granted to and including
(date)
(date) on ______________ _
in Application No. AThe Jurisdiction of this Court is invoked under 28 U.S.C.
§1254(1 ).

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
N.J. CONSTITUTION, ARTICLE I, § 10
U.S. CONSTITUTION, AMEND VI, XIV .

2

STATEMENT OF THE CASE

From its earliest origins, the right to assistance of
counsel has been understood to preclude the government from
unjustifiably refusing to allow an accused to be represented
by the counsel of his choice. In rare instances when States
have transgressed this constraint. Federal Courts consistently
have held that these errors require reversal and new trials.
The question in this case, is whether a State Court's erroneous
denial of a criminal defendant's Sixth Amendment Right to be
represented by his chosen counsel of two years, resulted in
a decision that was contrary to, or involved an unreasonable
application of "clearly established" Federal law as determined
by the Supreme Court of the United States?
in July/2004 petitioner was arrested along with 15 others,
and was charged with 1st degree distribution of CDS, 2C:35-5;
1st degree racketeering, 2C:41-2c; 1st degree leader of a
narcotics network, 2C:35-3; and a host of other charges that
derived from this arrest. Soon after on December 2, 2004,
petitioner Charles Hamilton retained & paid Maria Noto his
counsel of choice $50,000; (exhibit E). This was two years before
his 2006 trial, and also at this time Ms. Noto was a "sole
practitioner". In January/2006 Ms. Noto added Edward G.
Washburne, esq. to her firm as a partner; (trans. 10/10/06,
4:3-15). Mr. Hamilton was notified of this change, and was also
advised that Mr. Washburne would be "assisting" Ms. Noto on
his case from time to time. However, at no time was it ever
3

suggested that Mr. Washburne would be taking over Mr. Hamilton's
case; (trans. 10/10/06, 7:9-17). On April 4, 2006, Ms. Noto
signed a trial memorandum on Mr. Hamilton's behalf, in which
the trial date was set for September 26, 2006; "Good morning,
Your Honor, Maria Noto on behalf of Charles Hamilton"; (trans.
4/4/06, 3:3-4). On August 30, 2006, exactly 26 days before the
September 26th scheduled trial date, Mr. Washburne for the first
and only time alone, appeared on Mr. Hamilton's behalf for a
scheduled pre-trial DRIVER HEARING / STATUS CONFERENCE. At this
hearing, Mr. Washburne emphatically made it very clear to the
court that he would not be trying Mr. Hamilton's case, and that
he was only a stand in for Ms. Noto for that day.

Mr. Washburn: "Judge, good morning. My name is
Edward Washburn. I represent,
atleast for the purpose of today's
Hamilton"
hearing, Mr._____
(trans. 8/30/06, 3:1-3)

The Court even acknowledged that they were aware that Mr.
Washburne would not be trying petitioner's case.

The Court: "So Mr. Washburn, how long do you
think your case will be? I know
you wont be trying it, but do you
think three weeks look like alot?"
(trans. 8/30/06, 5:9-11)

After the August 30, 2006 Status Conference / Driver hearing
and just days before the September 26, 2006 trial date, Mr.
Hamilton received a message from Ms. Noto stating that his trial
4

date had been postponed due to a previous trial the Court was
conducting had run longer than scheduled, and that it would
not be finished in time to start Mr. Hamilton's trial as had
been planned; (trans. 10/5/06, 6:6-11). It's at that time Mr.
Hamilton was informed of Ms. Noto's trial scheduling conflict,
that she was scheduled to conduct a murder trial in Essex
County(State v. Jarret Cerrano) at the same time the Judge had
set Mr. Hamilton's new trial date for, which was October 5,
2006, and that Mr. Washburne would be acting as substitute
counsel during his trial, (trans. 10/10/06, 6:7-16).
Note: Until such time that the September 26th trial date was
postponed to October 5th, there were no conflicts in Ms. Noto s
schedule and no conflict in Mr. Hamilton's Counsel of Choice.
Nevertheless petitioner objected to this substitution,
and Ms. Noto stated that the court did not want to postpone
the October 5th date, so "it was nothing she could do". On
September 28, 2006, a few days after Mr. Hamilton was notified
by Ms. Noto of this scheduling conflict and that Mr. Washburne
would be acting as substitute counsel, Mr. Hamilton called the
court and attempted to speak directly with Judge Bielamowicz
to voice his objection to this substitution of counsel in which
Judge Bielamowicz properly declined to speak with him. Mr.
Hamilton was unaware that the Judge was barred from speaking
with him ex'parte and believed that he was simply getting the
brush off. Dissatisfied with this outcome Mr. Hamilton took
the next step of coming to the courthouse in person and
requesting to speak with Judge Bielamowicz, again to voice his
objection to this counsel substitution; the Judge again declined

to meet with him. Once the reason was explained to Mr. Hamilton
by the bailiff, Mr. Hamilton then submitted his objections in
writing and gave the letter to the bailiff in person. The letter
was addressed by the Court on October 5, 2006, the first day
of the proceedings, where Mr. Hamilton's letter and objection
to counsel's substitution was discussed.

THE COURT:

"I did read your letter Mr. Hamilton, and
I brought your concerns to your attorney's
attention. Is there anything you would like to
say". (trans. 10/5/06, 4:5-8)

Mr. Hamilton's letter and objection to counsel's
substitution was discussed, where he was all over the place;
however, the one thing that he did make clear several times
throughout the proceeding, is that he did not retain, want,
choose, or assent to Mr. Washburne's substitution:

Mr. Hamilton: "I didn't pay him. He wasn't even in
the firm when I paid her my money,
(trans. 10/5/06, 4:14-16)
Mr. Hamilton: "He's not the attorney of my choice.
He's not the attorney that I hired.
I mean, I'm not saying he's not a
good attorney. I'm not saying he
wouldn't fight the case to his ability
but he's not the attorney that I hired
to handle my case. He wasn't even in
the practice. If I wanted Mr. Washburn
I would have went and seeked out Mr.
Washburne. All I want is a fair trial.
I want somebody that is going to fight
that I choose" (trans. 10/5/06, 7:2-10)

Petitioner consulted with an attorney that would have been
6

his perfect choice for substitute counsel, and made the Court
aware; "I have a substitute attorney of my choice, thats willing
to fight my case"; (trans. 10/5/06, 6:20-21). At this point.
the Court told Mr. Hamilton that there will be no postponements
to get a substitute attorney, and that he can choose to either
to go to trial with Mr. Washburne or with Ms. Noto; (trans.
10/5/06, 7:22-24). In which petitioner responded:

Mr. Hamilton: I'm not going to sit here and say
I want Miss Noto, because I dont.
She must not be interested! But I
dont want Mr. Washburne either,
because I didn't choose Mr. Washburn
I guess you make your decision!
(trans. 10/5/06, 8:19-23)
Mr. Hamilton: I guess, if I have to pick between
the two, could I have Ms. Noto?
(trans. 10/5/06, 9:8-9)

The matter was continued to October 10, 2006 so that Ms.
Noto could be present along with Mr. Washburne, so that
petitioner's counsel of choice claim could be hashed out on
the record; (trans. 10/5/06, 8:11-14).
On October 10, 2006, the proceeding continued with
petitioner Hamilton, Mr. Washburne, and Ms. Noto present. The
Court started it’s questioning with Mr. Washburne:

The Court: "He did acknowledge in his letter that he was
aware of your substitution for some period of time, is that
correct?"; (trans. 10/10/06, 2:10-15)
Mr. Washburne: "Well, I don't know that it was so
much that he was advised of it. I
wasn't present at the conversation
7

with Ms. Noto and him"
(trans. 10/10/06, 2:20-24)
Mr. Washburne doubles down, to make clear; "I wasn't present
at that conversation", (trans. 10/10/06, 3:1-2). The Court then
proceeds to next question Ms. Noto, where she states that Mr.
Hamilton assented to Mr. Washburne's substitution:

-• "0t0: to"have^Mr."washburne"take o^as^s

raJfar^Stfi.artoS^ft^eldaia not.
The Court. When was this?
Ms. Noto: I cant give you an exact date, approximately
the middle of April.
(trans. 10/10/06, 5:11-18)

Lastly, the Court then directs it’s questioning to
petitioner Hamilton, the individual that the sixth amendment
was designed to protect:
The Court: Do you disa9ree with that, because that's
exactly what I've been told?
Petitioner: Yes, I do disagree!
The Court: I'm just telling you whether you agree or
not?
Petitioner: "No"

(trans. 10/10/06, 3:3-22)

Even though Ms. Noto stated that petitioner assented to
Mr. Washburne's substitution, Mr . Washburne stating that he
did not have any direct knowledge of petitioner assenting to
his substitution, and petitioner clearly stating himself that
8

he did not in any way assent to Mr. Washburne's substitution,
Ms. Noto however tells the Court that, "if it would adjourn
the case , she would certainly try it", (trans. 10/10/06, 6:1216). Nevertheless, the trial court ultimately denied Mr.
Hamilton1s request for a continuance so that he could continue
with his counsel of choice - "Maria Noto" or in the alternative
hire substitute counsel of his choosing, and was forced to
proceed with a partner in Ms. Noto's firm, "Edward Washburne";
(trans. 10/10/06, 10:1-10). The New Jersey State Court totally
ignored the fact that it was petitioner s constitutional right
to counsel of choice, and based it's reasoning partially on
the fact that it(the Court) felt that Mr. Washburne would make
for a good trial attorney for petitioner due to his status as
a former prosecutor(such as herself).

THE COURT: Well, he has experience on both defense
side and the prosecutor's side, and I
always thought that former prosecutors
made very good defense attorneys because
they were aware of weaknesses in the
state's case from having recognized them
when they prosecuted them. So "I have
no reason to believe that Mr. Hamilton
will not have very professional and
aggressive representation. So we re
going to proceed with Mr. Washburne
representing Mr. Hamilton, and I
have every reason to believe, Mr.
Hamilton, that you will receive very
fine representation.
(trans. 10/10/06, 10:15 to 11:8)

NOTE: Whether the Judge thought that^r. w-hburue^ould eaKe^
for a good trial attorney or not,
it wasn't her life, liberty or constitutional right to counsel
of choice that was at stake!
9

It continued in it's reasoning, stating that it believed
that petitioner assented to substitute representation by Edward
Washburne(Ms. Noto's new partner), and therefore was already
represented by his counsel of choice; and went on to say, it
was also concerned that petitioner was just looking for a way
to adjourn the trial.(trans. 10/10/06, 10:1-24).
Petitioner next raise that he was denied his constitutional
right to counsel of choice on direct appeal to the New Jersey
State’s Appellate Division, which the Court denied on June 29,
2010, stating "the denial of Hamilton's request for an
adjournment was not an abuse of the court's discretion nor did
it cause Hamilton a manifest wrong or injury", (exhibit D);
it was certified by the New Jersey State Supreme Court
January/2011. On September 17, 2019, Hon. Peter G. Sheridan,
U.S.D.J. denied petitioner's habeas corpus petition, stating
"that there was little support for Hamilton's contention that
the trial court committed any constitutional error in him
proceeding to trial with Mr. Washburne as his trial counsel";
(exhibit C). On March 3, 2020, Hon. Peter G, Sheridan U.S.D.J.
denied petitioner's motion to reconsider it's September 17,
2019 ruling; (exhibit B). And lastly on October 7, 2020, the
United States 3rd Cir Court of Appeals denied petitioner's
request for certificate of appealability, stating that "Jurist
of reason would not debate that the claims in appellant's habeas
petition were either procedurally barred or meritless for
essentially the reasons set forth in the District Court's
opinion"; (exhibit A).
10

REASONS FOR GRANTING PETITION
1. A State Trial Court's unjustified refusal to allow a short
continuance so that a defendant can continue to be represented
by his counsel of choice of two years or time to choose & hire
substitute counsel of choice, violates the Sixth Amendment
without regard to whether the unjustified refusal had a
demonstrable effect on the verdict.
2. Forcing a defendant to trial with substitute counsel not
of his choice, violates the Sixth Amendment without regard to
whether he can show that substitute counsel not of his choice
was in some way deficient or had an affect on the verdict.

The historical core of the right to counsel, is the right
to counsel of choice. Before the Assistance of Counsel Clause
guaranteed anything else, it guaranteed defendants right to
be represented by their retained lawyers, provided courts had
no legitimate reason to preclude such representation. Past State
and Federal appellate decisions confirmed that this right was
understood to exist on its own terms, apart from any ability
to demonstrate that its denial affected the verdict in any
particular case. This Court in Glasser v. United States, 315
U.S. 60, 75<1942), held that "Glasser wished the benefit of
the undivided assistance of counsel of his own choice. We think
that such a desire on the part of an accused should have been
respected".
The case sub judice originated in the State of New Jersey,
11

where petitioner was denied his sixth amendment right to counsel
of choice. Petitioner filed a habeas corpus petition to the
3rd Cir. District Court, where it ruled that "there was little
support for petitioner Hamilton's contention that the trial
court committed any constitutional error in him proceeding to
trial with Mr. Washburne as his trial counsel"; (exhibit A).
The Sixth Amendment entitles a defendant to be represented
by his chosen attorney, and once he selects this attorney it s
at that moment his right to counsel of choice attaches. In
reviewing the "whole record", it will be clear to this Court,
that petitioner's United States Sixth Amendment Right to Counsel
of Choice was indeed violated.

TIME-LINE
1. December 2, 2004, Petitioner payed $50,000 & retained "Maria
Noto as his counsel of choice", two years prior to his October
5, 2006 trial; (exhibit E).
2. April 4, 2006, petitioner's counsel of choice Maria Noto
signed the trial memorandum on his behalf, with a trial start
date of August 26, 2006; (trans. 4/4/06, 3s3-4).
3. August 30, 2006, Edward Washburne, Ms. Noto's new partner,
showed up in Court for the first time alone, just 26 days
before the September 26, 2006 scheduled trial start date.
At this hearing, he made it clear to the Court, that he
"WOULD NOT" be conducting petitioner's trial, that he was
only standing in for Ms. Noto for that day; (trans. 8/30/06,
3:1-3).
4. August 30, 2006, the trial Court itself also acknowledged
that it was aware that Mr. Washburne would not be conducting
petitioner's September 26th trial, again just 26 days before
the scheduled September 26th trial start date; (trans.
8/30/06, 5:911).
5. Just days before the September 26, 2006 scheduled trial date,
Ms. Noto calls petitioner to tell him that his trial start
date was rescheduled to October 5th, due to a trial the court
12

was conducting running longer than expected; (trans. 10/5/06,
6:6-11).
NOTE: Until the rescheduling of petitioner's original trial
date from September 26th to October 5th, there were no
conflicts in Ms. Noto's schedule and no conflict in Mr.
Hamilton's Counsel of Choice.
6. Just days before petitioner's September 26th scheduled trial
date, petitioner went to the courthouse, on a noncourt day,
and gave a letter to the bailiff to give to the Judge,
objecting to Ms. Noto's attempt to have Mr. Washburne take
her place as petitioner's trial attorney; (trans. 10/5/06,
4:5-8).
7. October 5, 2006, petitioner stood up and made clear to the
Court, that "Mr. Washburne is not the attorney that he hired
and not his attorney of choice; (trans. 10/5/06, 4:14-16
& 7:2-10).
8. October 10, 2006, Mr. Washburne made it clear, contrary to
Ms. Noto's statements to the court, that he was not present
at no such meeting where he witnessed petitioner assent to
his substitution & was only told by Ms. Noto that he did;
(trans. 10/10/06, 2:18-22). Mr. Washburne doubled downed
later at this same hearing, and again made himself clear
to the Court "that he did not personally witness Mr. Hamilton
assent to his trial substitution"; (trans. 10/10/06, 3:1-2).
9. October 10, 2006, petitioner went on to explain to the Court
that he did not want Mr. Washburne, and his understanding
was that he payed Ms. Noto and that Mr. Washburne was only
"assisting" her on his case by showing up at his last Court
hearing(8/30/06) alone; (trans. 10/10/06, 7:9-25).
10 . October 10, 2006, the trial Court unreasonably based it's
decision to deny petitioner a continuance so that he could
continue with his counsel of choice "Maria Noto" or time
to get substitute counsel of choice, and based it's reasoning
"that it believed petitioner assented to Mr. Washburne's
substitution, and that it was also concerned that petitioner
was just looking for a way to adjourn the trial"; (trans.
10/10/06, 10:1-24).
The record cannot be any clearer, petitioner was not looking
for a way to adjourn his trial, all he wanted was the
representation by his counsel of choice of two years Maria Noto,
or in the alternative time to retain substitute counsel of his
13

choice

Here are a few cases, Federal & Supreme Court that are

starkly factually similar to petitioner’s case: See United States
v. Johnston, 318 F.2d 288(1963); where Johnston retained his
counsel of choice, well in advance of trial. There were no
continuances or other bad faith motives or attempts to delay
the proceedings caused by Johnston. However just days before
Johnston’s trial was scheduled to start, his retained counsel
informed him of a scheduling conflict and that an associate
would be conducting the trial. At trial, Johnston voiced his
complaint to the court. The Court inquired of the U.S. Attorney,
his position, and was informed there were witnesses coming from
Canada and from other states. Some were already here, while
others were on their way. The Court inquired into the competency
of substitute counsel (as was done in Hamilton's case), and
satisfied ordered the trial to continue with substitute counsel.
Johnston was convicted, but reversed on appeal, in united States
1969,
v, Seale, 461 F,2d 345, 356-361(1972); on September 9,
Seale's attorney Mr. Gary filed a motion for a continuance of
a September 24, 1969 trial date, due to an impending operation.
The trial court denied this motion, and forced Johnston to trial
with substitute counsel "who was only hired for pretrial work”,
"against Seale's objections”. Seale was convicted, and the
Appellate Division reversed and held: "The point is, that the
trial Judge was confronted from the very beginning with
objections that these attorneys of record were not in fact
counsel chosen by Seale to represent him at trial(as was done
in Hamilton's case). in sum, the right to counsel of choice
14

could not be denied by exclusive recourse to appearances on
record, where Seale did not actually agree to the trial
representation of the appearing attorneys or where he was not
shown to be engaging in unwarranted dilatory tactics • They
went on to say "The grant of a reasonable continuance to secure
substitute counsel, or leave to defendant to represent himself
would have permitted the trial to continue promptly and may
well have alleviated many of the difficulties that later
occurred". Lastly, this Court’s ruling in United States v.
Gonzalez-Lopez, 548 IKS. 140(2006) represents the importance
of ones Sixth Amendment Right to Counsel of his own choosing.
Justice Scalia held: "a paying defendant should get a new trial
because he was wrongly denied the lawyer of his choice", "no
matter how well or poorly the defendant’s substitute attorney
performed the accused had a core Sixth Amendment right to be
represented by the lawyer he hired for his case". "the Sixth
Amendment commands not that a trial be fair, but that a
particular guarantee be provided - to wit, that the accused
be defended by the counsel he believes to be the best , and
lastly "a new trial is required because there were unquantifiable
and indeterminate consequences of substituting one attorney
for another".
Sub Judice, as in Johnston, Seale, and Gonzalez-Lopez,
there were no continuances, or other indica of bad faith.
The New Jersey State Court made no inquiry into how long Ms.
Noto would be unavailable, and the State never asserted any
hardship would accrue to them should any continuances be granted
15

by the Court. The State Court should have Granted a short
continuance, so that Mr. Hamilton could have continued with
his counsel of choice of two years "Maria Noto", or in the
alternative time to hire substitute counsel of his choice.
Also, the 3rd Cir. District Court should have granted his habeas
corpus petition, as petitioner's Sixth Amendment Right to Counsel
of his Choice was indeed violated.

CONCLUSION

Petitioner has made clear that the New Jersey State & 3rd
Cir. District Court's adjudication of his Denial of Counsel
of Choice issue, resulted in a decision that was contrary to,
or involved an unreasonable application of clearly established
federal law as determined by the Supreme Court of the United
States, and/or resulted in a decision that was based on an
unreasonable determination of the facts in light of evidence
presented in the State Court proceedings. 28 U.S.C. 2254(d).

Petition for writ of certiorari should be granted.

Respectfully submitted,

Date:

CharleS Hamilton
16

